<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2014

                              ----------                              

                                            Friday, April 12, 2013.

              INSTALLATIONS, ENVIRONMENT, ENERGY AND BRAC

                               WITNESSES

 HON. JOHN CONGER, DEPUTY UNDER SECRETARY OF DEFENSE FOR INSTALLATIONS 
    AND ENVIRONMENT
 HON. KATHERINE HAMMACK, ASSISTANT SECRETARY OF THE ARMY FOR 
    INSTALLATIONS, ENERGY AND ENVIRONMENT
 MR. ROGER NATSUHARA, PRINCIPAL DEPUTY ASSISTANT SECRETARY OF THE NAVY 
    FOR INSTALLATIONS AND ENVIRONMENT
 HON. KATHLEEN FERGUSON, ACTING ASSISTANT SECRETARY OF THE AIR FORCE 
    FOR INSTALLATIONS, ENVIRONMENT AND LOGISTICS

                      Chairman's Opening Statement

    Mr. Culberson. The Appropriations Subcommittee on Military 
Construction and Veterans Affairs will come to order. We are 
delighted to have with us today--we are going to have our 
hearing today on Installations, Environment, Energy and BRAC 
for Fiscal Year 2014. Delighted to have all of you here today 
with us. We want to dive right into the questions. I would like 
to recognize my ranking member, Mr. Bishop, for any opening 
remarks he would like to make.

                   Ranking Member's Opening Statement

    Mr. Bishop. Thank you very much, Mr. Chairman. I am glad to 
be here today. Today we are going to be able to talk about the 
President's 2014 budget request. And we have the civilian 
leadership here that can explain the priorities for military 
construction for each of the services. I look forward to 
hearing from our witnesses today about how sequestration is 
affecting their military construction projects not only this 
year, but in their requests for next year.
    I have said in each hearing, and I will reemphasize it 
again today, that I believe sequestration is the wrong way to 
reduce budgets, and that the Members of Congress, both 
Republicans and Democrats, need to really start working 
together to find a compromise in making fiscally responsible 
decisions. So I hope that starting with this year's budget we 
can work together to that end.
    Mr. Chairman, another subject equally important is the 
Defense Department's request for the second year in a row to 
conduct BRAC. In 2005, Congress authorized a BRAC that ended up 
being far more expensive and expansive than we were led to 
believe. And I have read your testimonies, and I understand 
that in 2004 it was known that the Department had 24 percent 
excess capacity, but during the 2005 BRAC, Defense only made 
reductions of 3.4 percent. I realize that it was, as many of 
you have stated in our private meetings, more of a reshaping or 
restructuring BRAC, but a lot of money was spent to move 
things, and most importantly, moving people around. So I am 
concerned that we will see more of the same if another BRAC is 
authorized, and we never get to any real savings, rather just 
moving military families around from one base to another.
    I am happy to see that the Department is taking steps that 
this committee asked for last year in focusing your reductions 
in facilities overseas. But before we start making facility 
reductions here at home, I think we should wait to see what 
savings we are actually going to have from the reductions 
overseas.
    Mr. Chairman, I realize that these are difficult issues for 
all of the Members of Congress and for the Department, and so I 
am glad for today's hearing so we can discuss them openly, and 
I look forward to a very vigorous debate and discussion. Thanks 
for the opportunity to share my comments.

                       Introduction of Witnesses

    And I yield back, Mr. Chairman.
    Mr. Culberson. Thank you very much, sir. I am delighted to 
have with us, as Mr. Bishop says, the civilian leadership at 
the Pentagon for military construction. And I would like to 
introduce our witnesses. The Honorable John Conger, who is the 
Deputy Under Secretary of Defense for Installations and 
Environment, and a first time witness. We are glad to have you 
here, sir, and welcome your testimony. The Honorable Katherine 
Hammack, Assistant Secretary of the Army for Installations, 
Energy and Environment. And the Honorable Roger Natsuhara, 
Principal Deputy Assistant Secretary of the Navy for Energy, 
Installations, and the Environment. And the Honorable Kathleen 
Ferguson, Principal Deputy Assistant Secretary of the Air Force 
for Installations, Environment and Logistics. We deeply 
appreciate your service to the country, the time that you have 
taken to be here in helping us do the best we can to provide 
support for our men and women in uniform. And without 
objection, your written statements will be entered into the 
record in order to keep us on time and on track, particularly 
because, as usual, votes are going to be called in the middle 
of this.
    I would like to ask if you could, each one of you, to 
summarize your statements in about 5 minutes. And we will of 
course enter those into the record in their entirety. And I 
would like to start with you, if I could, Mr. Conger, and 
welcome your testimony today. Thank you, sir.

                    Opening Statement of Mr. Conger

    Mr. Conger. Thank you very much, Mr. Chairman, Ranking 
Member Bishop, distinguished members of the subcommittee. I 
appreciate the opportunity to appear before you to discuss the 
Department's fiscal year 2014 budget request for installations 
and environment.
    First, I would like to take a point of personal privilege 
to say how much I appreciate being invited to speak before this 
subcommittee. As some of you know, I worked for Congressman 
Chet Edwards for many years. And coming back to this 
subcommittee is a little bit nostalgic for me. I have been 
looking forward to this opportunity since I moved over to the 
Pentagon in 2009. And I will say this, as Congressman Carter 
will probably appreciate, Fort Hood is still my favorite base 
in the military.
    Mr. Carter. Good for you.
    Mr. Conger. The testimony that I submitted for the record 
describes the $11 billion we are requesting for military 
construction, the $10.9 billion that we are investing in 
sustaining and restoring our facilities, and the $3.8 billion 
we are seeking for environmental compliance and cleanup. You 
will note that the numbers are not significantly lower than 
those we requested in fiscal year 2013. In fact, they represent 
a slight increase from what was appropriated this year. That is 
because the President's budget request replaces across the 
board sequester cuts with a comprehensive deficit reduction 
plan. And within the request, that plan averts what would 
otherwise be another significant reduction in the defense 
budget, and enables us to present to you a fiscal year 2014 
budget request that allows us to continue prudent investment in 
our infrastructure.
    In the interests of time, I am going to save talking about 
the fiscal year 2013 sequester impacts for a Q and A. And in 
fact, my colleagues here will be able to talk about base by 
base stuff in particular. I did want to raise one particular 
issue, though. I wanted to say a word or two about BRAC.
    As you know, the administration is requesting a BRAC round 
in 2015. The Department is facing a serious problem created by 
the tension caused by constrained budgets, reductions in force 
structure, and limited flexibility to adapt to the first two. 
We need to find a way to strike the right balance so 
infrastructure does not drain too many resources from the 
warfighter. Without question, installations are critical 
components of our ability to fight and win wars. Whether that 
installation is a forward operating location or a training 
center in the United States, our warfighters can't do their 
jobs without bases from which to fight, on which to train, or 
in which to live when they are not deployed. However, we need 
to be cognizant that maintaining more infrastructure than we 
need taxes other resources that the warfighter needs as well, 
from depot maintenance to training to bullets and bombs. We are 
continually looking for ways to reduce the cost of doing 
business, from looking for ways to reduce the cost of military 
construction, to investing in energy efficiency that pays us 
back in lower operating costs. BRAC is another very clear way 
for us to reduce the infrastructure costs to the Department. 
The previous five rounds of BRAC are providing us with a 
recurring savings of $12 billion every year. In essence, our 
past investments in BRAC are paying for our entire MILCON bill 
and then some.
    I am well aware of the skepticism that many in Congress 
have about the need for BRAC. But I think there is a good case 
for presuming another round. And I would be happy to have that 
conversation here today.
    Thanks for the opportunity to testify this morning. It 
truly is a pleasure to be here, and I look forward to your 
questions.
    [The statement of Mr. Conger follows:]




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Culberson. Thank you very much, Mr. Conger. Ms. 
Hammack, glad to have you with us today. Thank you.

                    Opening Statement of Ms. Hammack

    Ms. Hammack. Thank you, Chairman Culberson, Ranking Member 
Bishop, and members of the committee. On behalf of soldiers, 
families, and civilians of the United States Army, I want to 
thank you for the opportunity to discuss our fiscal year 2014 
military construction budget. For fiscal year 2014, the Army 
requests $2.4 billion for military construction, Army family 
housing, and Army's share of the DoD base closure account. This 
represents a 34 percent reduction from the fiscal year 2013 
request. In addition to, and in support of Army installations 
and facilities, the Army also requests $15.2 billion for 
installation, energy, and environmental programs, facilities 
sustainment, restoration, modernization, and base operating 
support. With the fiscal challenges that the Army and the whole 
Department of Defense is making, we closely reviewed our 
facility investments to determine the level of resources 
necessary to support the force. Supporting the force requires 
adequate facilities, training ranges, maintenance, and 
operations. As you well know, the Army is reducing our end 
strength by about 14 percent, or 80,000 soldiers, effective in 
2017. In January of this year, we published a programmatic 
environmental assessment, or a PEA, that was prepared in 
accordance with the National Environmental Policy Act, or NEPA. 
A signed finding of no significant impact was published in the 
Federal Register this morning. What we found is there is no 
significant environmental impact, although in many communities 
we received responses of socioeconomic impacts. But the 
resulting force structure reduction, as Mr. Conger mentioned, 
is and will create excess capacity at several installations. 
With the reduced end strength and reduced force structure in 
the United States, now is the time to assess and right-size the 
supporting infrastructure. In line with force structure 
reductions in Europe, where we are reducing by two Brigade 
Combat Teams, the Army is already downsizing our 
infrastructure. With a 45 percent reduction in force structure, 
the Army is implementing a 51 percent reduction in 
infrastructure. We anticipate a corresponding 58 percent 
reduction in workforce, 57 percent reduction in base operating 
costs. A future round of base realignment and closure in the 
U.S. is essential for us to right-size our infrastructure in 
the United States, just like we are doing in Europe. In Europe, 
we are working closely with OSD and the other services to 
identify if there are other opportunities for jointness or 
consolidation beyond that which the Army is already 
implementing. As John mentioned, the prior rounds of BRAC have 
resulted in operational cost savings to our bottom line. For 
the Army, the BRAC 2005 round resulted in $1 billion worth of 
savings annually. But we know that as we close bases there is a 
cost for property conveyance and environmental cleanup. Putting 
excess property back into productive reuse can facilitate job 
creation, help communities build the local tax base, and 
generate revenue. In total, the Army has conveyed almost 78 
percent of the total prior BRAC acreage. And we are investing 
in the environmental cleanup to convey the remaining.
    In closing, I ask for this committee's commitment to our 
soldiers, families, and our civilians, and support for the 
Army's MILCON and installation programs, and request for a BRAC 
round in fiscal year 2015 so that we can appropriately manage 
our budgets. The Army's strengths is its soldiers, its 
families, and Army civilians who support them, and they are and 
will continue to be the centerpiece for the Army. I thank you 
for the opportunity to appear before you today and look forward 
your questions.
    [The statement of Ms. Hammack follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Culberson. Thank you very much. Mr. Natsuhara, we are 
delighted to have you with us here today. Thank you, sir.

                   Opening Statement of Mr. Natsuhara

    Mr. Natsuhara. Thank you, sir. Chairman Culberson, Ranking 
Member Bishop, and members of the subcommittee, I am pleased to 
appear before you today to provide an overview of the 
Department of the Navy's investment in its shore 
infrastructure. We appreciate the support of the Congress in 
passing the Defense and Military Construction, Veterans 
Affairs, and Related Agencies Appropriations Act of Fiscal Year 
2013. They provide us with the critical funding necessary to 
repair, maintain, and modernize our infrastructure and support 
new platforms as they arrive on station.
    For fiscal year 2014, the Department is requesting over $12 
billion in various appropriations accounts to operate, 
maintain, and recapitalize our shore infrastructure. This level 
of funding, rooted in the Defense Strategic Guidance of 2012, 
represents continued investment to enhance combatant 
commanders' capabilities, improve servicemembers' quality of 
life, and recapitalize aging infrastructure. The fiscal year 
2014 budget also demonstrates the Department's commitment to 
energy security by funding cost-effective projects, efforts 
that will improve our energy infrastructure and reduce our 
consumption. The strength of our Navy and Marine Corps team 
lies not only in advanced weaponry or faster, stealthier ships 
and aircraft. Our Naval forces derive their strength from the 
sailors and marines who fire the weapons, operate and maintain 
the machinery, or fly the planes, and from the families and 
civilians supporting them. Toward this end, the Navy and Marine 
Corps have programmed over $244 million of military 
construction funds for operational and technical training, 
professional development, and academic facilities, nearly $100 
million of unaccompanied housing, and $463 million to support 
family housing construction operations.
    Guam remains an essential part of the United States' larger 
Asia-Pacific strategy, which includes developing the island as 
a strategic hub and establishing an operational Marine Corps 
presence. The Department of Defense recognizes congressional 
concerns regarding execution of the Guam military realignment, 
and is taking steps necessary to resolve critical issues that 
will allow the construction program to move forward.
    Furthermore, the United States and Japan are continuously 
looking for more efficient and effective ways to achieve the 
goals of the Realignment Roadmap. Both countries remain 
committed to maintaining and enhancing a robust security 
alliance, and the United States remains committed to enhancing 
the U.S.-Japan alliance, and strengthening operational 
capabilities. Our Nation's Navy and Marine Corps team operates 
globally, having the ability to project power, effect 
deterrence, and provide humanitarian aid whenever and wherever 
needed to protect the interests of the United States.
    The Department's fiscal year 2014 request supports critical 
elements of the Defense Strategy of 2012 by making needed 
investments in our infrastructure and people, reducing our 
worldwide footprint, and preserving access to training ranges 
afloat and ashore.
    I look forward to working with you to sustain the 
warfighting readiness and quality of life for the most 
formidable expeditionary fighting force anywhere in the world. 
Thank you for this opportunity to testify before you today, and 
I welcome your questions.
    [The statement of Mr. Natsuhara follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Culberson. Thank you very much, sir.
    Ms. Ferguson.

                   Opening Statement of Ms. Ferguson

    Ms. Ferguson. Good morning, Chairman Culberson, Ranking 
Member Bishop, and distinguished members of the subcommittee. 
Thank you for the opportunity to speak to you today about the 
Air Force's installations programs. Also, on behalf of the 
Secretary and the Chief of Staff of the Air Force, I would like 
to thank the subcommittee for your unwavering support for our 
Air Force and our Airmen. Our fiscal year 2014 budget request 
contains $1.3 billion for military construction, $2.2 billion 
for facility sustainment, $813 million for restoration and 
modernization, and $465 million for military family housing. In 
fiscal year 2013 we took a deliberate pause in MILCON to ensure 
we were making the right capital investment decisions, as force 
structure adjustments were being made in the emerging defense 
strategy. Our fiscal year 2014 MILCON request is approximately 
$900 million above our fiscal year 2013 request, and returns us 
to near historical funding levels, supports the Department's 
strategic priorities, our top weapons systems modernization 
programs, and distributes MILCON funding equitably between 
Active, Guard, and Reserve components. This budget request 
reflects our modernization effort. This includes critical 
projects to support the F-35 and KC-46, recapitalization of 
U.S. Strategic Command headquarters, and construction of the 
new Cyber Command Joint Operations Center. Included in this 
request is $265 million at unspecified locations to support the 
KC-46 bed-down. We will submit site-specific MILCON project 
document forms in May of 2013 after preferred and reasonable 
alternative bases are announced, and will request the 
subcommittee's support for this substitution.
    The Air Force strongly supports the Department's request 
for another round of BRAC in 2015. While we have no current 
capacity analysis from which to draw, our 2004 capacity 
analysis suggested that 24 percent of basing infrastructure was 
excess to needs. BRAC 2005 did not result in major reductions 
to the Air Force. And since that time, we have reduced our 
force structure by over 500 aircraft and our active duty 
military end strength by more than 8 percent. We continue to 
spend money maintaining excess infrastructure that would be 
better spent on recapitalization and sustainment. Divestiture 
of excess property on a grander scale is a must. During this 
period of fiscal uncertainty, the Air Force is ready to make 
the tough decisions required to avoid mission-impacting 
reductions and installation support that contribute to a hollow 
force. Our fiscal year 2014 budget request addresses our most 
pressing needs, seeks authorization to eliminate unnecessary 
infrastructure, and stays true to the fundamental priorities of 
the Air Force.
    Thank you, and I look forward to your questions.
    [The statement of Ms. Ferguson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Culberson. Thank you very much, Ms. Ferguson. I know 
every one of us has got a number of questions. I wanted to, if 
I could, start out with you, Mr. Conger, and talk about the 
President's proposed reductions.

      BUDGET REDUCTION AND RISK TO MILITARY CONSTRUCTION ACCOUNTS

    The Department of Defense has been asked to reduce the 
defense budget by approximately $487 billion over a 10-year 
period. And we have seen some budget reductions from the 
services. Within the fiscal 2014 budget recommendation from the 
President there is proposed significant reductions to the Guard 
and Reserve accounts, while active military construction 
accounts are recommended to increase.
    Can you explain to the committee the increases you are 
recommending in active construction accounts and what areas do 
you see are most at risk with the reductions that are proposed 
to Guard and Reserve accounts?
    Mr. Conger. For the specific Guard and Reserve accounts, I 
would like to defer those questions to my colleagues from the 
services to talk about their independent budgets. Just a brief 
note on the reductions of $487 billion over 10 years. That was 
under the Budget Control Act. Those were cuts that we absorbed. 
And my note in my opening statement was the 2014 request 
doesn't have--basically doesn't have additional cuts due to 
sequestration. So let's put that in context. This is the 
reductions that we have been working with for the last couple 
years that we have been planning for.
    Now, with regard to the AC-RC mix, I would flag it out to 
any of my colleagues to see if they have any thoughts.
    Mr. Culberson. If I could also follow up on that, remind 
me, the level of cut for 2013 and the automatic cuts under 
sequestration for military construction accounts I think was 
7.8 percent. What is the proposal for 2014? What would the 
statute, the Budget Control Act require of the military 
construction accounts across the board?
    Mr. Conger. The military construction accounts are going to 
be at--when you aggregate MILCON, family housing, and the 
various other things that fall into the MILCON appropriations 
it is $11 billion. That is our request for 2014.
    Mr. Culberson. If I could hear from Ms. Hammack on the 
other, please.

                  BUDGET CONTROL ACT IMPACTS ON MILCON

    Ms. Hammack. Absolutely. As I stated in my opening 
comments, the Army has taken a 34 percent reduction across the 
board in our military construction request for fiscal year 
2014. It was an equitable distribution, an equitable reduction 
across all components, whether that be Guard, Reserve, and 
Active Army. Everyone took the same reduction in top line 
funding.
    Mr. Culberson. And what effects, what are some of the areas 
in your opinion most at risk as a result of those reductions?
    Ms. Hammack. What we are funding is the most critical, and 
the most critical at risk of failure. We believe we have 
appropriately prioritized the reductions for all, and are 
addressing those that are most critical.
    Mr. Culberson. Mr. Natsuhara.

                SEQUESTRATION IMPACTS ON MILCON BUDGETS

    Mr. Natsuhara. The Navy MILCON budget overall for 2014 is 
slightly less than 2013. And primarily a lot of that is Marine 
Corps growth of force and barracks recapitalization program has 
been completed. Relative to our Reserve force, we have a very 
small Reserve, but it is comparable to our Active, about the 
same amount of cuts.
    Mr. Culberson. Ms. Ferguson.
    Ms. Ferguson. For the Air Force MILCON program for fiscal 
year 2014 we increased our MILCON from just over $400 million 
to $1.3 billion, so about a $900 million increase. As we 
increased it, we increased the amount of dollars that went to 
the Guard and Reserve components, and we maintained equity 
between the Active, Guard, and Reserve, so the Air Force 
actually increased funding in this budget for that.

               NEW ROUND OF BASE REALIGNMENT AND CLOSURE

    Mr. Culberson. If I could ask each one of you to talk to us 
about why you believe one new round of BRAC is necessary for 
the fiscal year 2014 budget submission.
    Mr. Conger. Let me take that. First of all, we are 
requesting one new round of BRAC, not two. Last year we asked 
for two rounds, one in 2013, one in 2015. This year we are 
asking only one in 2015.
    Mr. Culberson. Right, 2015.
    Mr. Conger. I think that if I could characterize the 
requirement, we are carrying excess infrastructure. We believe 
that we are essentially paying more than we need to for 
infrastructure. And that taxes money away from the warfighter. 
We point to excess for three reasons. One, in 2004 we did a 
study of excess capacity. That was the one that came out 
overall aggregate the Department would have 24 percent excess 
capacity. Then we had a BRAC round. That BRAC round reduced 
approximately 3.4 percent of our plant replacement value. So as 
a consequence, we deem there is still a lot of excess there. 
Then subsequent to that we have had significant force structure 
reductions. We have talked a little bit today about the Army 
reductions of 80,000 personnel that they are planning, 20,000 
people reduced from the Marine Corps, and the Air Force has cut 
500 aircraft since that point in time. As a consequence, we 
have significant evidence that we have excess capacity. We 
simply don't want to be spending money we don't have to on that 
when it takes away from a variety of other programs that are 
hard pressed across the Department. And that is why we think we 
need a BRAC round.
    Mr. Culberson. Ms. Hammack.
    Ms. Hammack. I could say ditto.
    Mr. Culberson. Okay.
    Ms. Hammack. But I am going to say that we cannot afford to 
keep infrastructure that we do not need. And right now we are 
planning to reduce at least by six Brigade Combat Teams in the 
United States. Each Brigade Combat Team has a little over a 
million square feet. So if you do the math, that is going to 
tell you that we are going to have excess capacity as we reduce 
the size of our force.
    Mr. Natsuhara. The Department of the Navy in the past BRAC 
rounds had closed approximately 50 percent of our 
installations. So we have seen the benefits of BRAC. We are 
supporting the BRAC rounds because we believe that the analysis 
is always beneficial to see where we have our capacities, where 
we can make our efficiencies.
    Mr. Culberson. Thank you.
    Ms. Ferguson. As both Mr. Conger mentioned and I mentioned 
in my opening statement, the Air Force believes we still have 
excess capacity. We had identified 24 percent excess capacity 
as we prepared for BRAC 2005. We reduced just .8 percent, .8 of 
1 percent of our infrastructure as we executed BRAC 2005. We 
reduced by 500 airplanes. And an additional 8 percent of our 
active duty military end strength has gone down.
    As I think Mr. Conger mentioned in his opening statement, 
prior rounds of BRAC have yielded significant savings for the 
Department. Over the last five rounds of BRAC, the Air Force 
has closed 40 bases, and as a result we saved $2.9 billion a 
year. And we believe we can save additional dollars by 
consolidation, closing additional facilities.
    Mr. Culberson. Thank you, Mr. Ferguson. Mr. Bishop, I know 
you have got a conflict next door, so I want to go right to my 
good friend from Georgia.

         RATIONALE AND BUDGET DRIVERS REASON FOR NEW BRAC ROUND

    Mr. Bishop. Thank you very much. I have an abiding interest 
in BRAC. And Secretary Conger, let me address you first. 
Obviously, we have been talking about the fiscal year 2014 
budget submission that calls for another round of BRAC. Is the 
budget driving these rounds, or the drawdown of our forces, or 
restructuring really driving it?
    Mr. Conger. So there are two ways to answer the question. 
Let me hit them both briefly in sequence. One of the major 
reasons anybody decides to have a BRAC is to save money. You 
have excess capacity, you are paying more than you think you 
need, and you look at base closure as a way to save that money. 
When we do the BRAC analysis, the decisions are driven by 
military value. And so that folds in together, and as the 
result of a BRAC round you get the savings. So the force 
structure reductions create an excess. And so therefore you can 
keep spending the money for the empty buildings, but that is an 
expenditure the Department doesn't deem wise. And we would like 
to be able to close facilities in order to save that money.
    Mr. Bishop. What type of reductions and savings are you 
looking to achieve in the new round?
    Mr. Conger. Well, it is a fair question. And I hate to give 
a copout, but it depends on what the analysis says, right? I 
mean we don't have a target. GAO said we should have targets 
for savings, right? But I think that nobody wants us to say we 
are going to close X number of bases. Because what happens when 
you get halfway down that list and you decide it doesn't make 
sense to close more? We don't want to have a particular target 
for how many bases to close because the business cases have to 
drive the answer. You know, particular recommendations are 
going to say, okay, if I need to spend this amount of money I 
am going to save this amount of money per year. And that is how 
you make a business case, you get a payback in a certain amount 
of time. It is all going to be based on those scenarios. And 
those scenarios are going to be driven by where there is 
capacity.
    Mr. Bishop. So you don't know.
    Mr. Conger. I would be remiss, and it would be highly 
inappropriate for me to prejudge the results of a complex BRAC 
analysis here off the cuff at the table.

            METRICS FOR CALCULATING SAVINGS IN A BRAC ROUND

    Mr. Bishop. Okay. So you don't really have expectations 
that you can establish metrics for. But this past Wednesday 
Secretary Ferguson and I had a very good BRAC discussion in my 
office regarding the Air Force and its excess capacity, and how 
the 2005 BRAC didn't really do much to help lower the cost of 
the military construction budget. So I have two questions. 
First, how much did the 2005 BRAC save the Department? And how 
did we do a BRAC that left the Air Force with 25 percent in 
excess facilities?
    Mr. Conger. Well, each service contributes to the analysis 
that drives what the recommendations are that affect that 
service. There is obviously a combined OSD look at these 
things. But the Air Force was driving the input that led to a 
conclusion that had fewer bases closed than they might have 
had. That said, how much are we saving from the 2005 BRAC round 
writ large? We are saving $4 billion a year. The cost was 
higher than expected. Nobody is hiding that point. There was an 
original projection, the numbers came in higher. We ended up 
spending more money than we had expected to spend. That said, 
we are doing nothing but saving right now. We are saving $4 
billion a year. And that recurs forever.

                 COST INCREASES IN PREVIOUS BRAC ROUNDS

    Mr. Bishop. How do we know that won't happen again this 
time?
    Mr. Conger. You mean the numbers would go up?
    Mr. Bishop. Right.
    Mr. Conger. Well, I think there are a couple of reasons why 
the numbers did go up. Let me address those briefly. There were 
a combination of decisions made within the Department to 
rebuild rather than renovate. We will have to exercise 
discipline in that regard. There were decisions made by 
Congress to add additional standards to some of the buildings 
we were building. World-class hospitals is the example that 
comes to mind. That added billions of dollars to the bill. And 
obviously we are not going to ignore what Congress tells us 
what to do and how to build what we are building. So if we have 
a recommendation that says go build a new hospital to a 
particular standard, and we hadn't planned for that standard, 
we are going to have an additional bill that goes along with 
it. That is just a fact of life, and we deal with that. I guess 
we all have to exercise some discipline in order to make sure 
that the costs don't go up in a future round.
    The other thing I would point out is that the last round 
that we had was at a time of growth. We were increasing the 
size of the military. And so as a consequence, there were 
fewer--there were more relocations and realignments than we 
might have had, and fewer closures than we might have had if we 
were at a time of decreasing forces. Right now we are at a time 
of decreasing forces. And so the appropriate model, the analog 
is those earlier rounds in the 1990s when we were decreasing 
forces. And those are distinctly different than the 2005 round. 
The 2005 round is an outlier in that regard.

                         EXCESS INFRASTRUCTURE

    Mr. Bishop. Secretary Ferguson, can you give the committee 
an idea of how much it costs to maintain the excess 
infrastructure, the 24, 25 percent that the Air Force has? And 
Secretary Hammack and Secretary Natsuhara, do your services 
have a problem with excess facilities?
    Ms. Ferguson. Congressman, if I could take that question 
for the record. I don't have that calculation off the top of my 
head. And one thing I would like to point out to you is as we 
look at the capacity analysis, the capacity analysis was based 
on infrastructure, and our analysis demonstrated that we had 24 
percent. Now, could we close 24 percent of our installations? 
No, we couldn't close 24 percent, but it is an indication that 
we do have excess infrastructure out there. Because as we would 
look in the Air Force to execute another round of BRAC, we also 
need to look at our operational space, we need to look at our 
airspace and ranges and spectrum and all those other things 
that contribute to being able to execute the Air Force mission. 
So the 24 percent is a physical capacity issue. But we can get 
some numbers back to you.
    [The information follows:]

    The overhead cost of maintaining bases is substantial so 
any reduction in excess will yield a savings. The Air Force's 
expenditures related to facilities, including military 
construction, average around $5 billion annually. Other costs 
associated with operating our installations (e.g., payroll 
support; personnel management, morale, welfare, and recreation 
services; environmental compliance and physical security) 
average about $9 billion annually. To be good stewards of 
taxpayer funds, the Air Force believes it must conduct a 
periodic review of our infrastructure to ensure that it is 
effectively and efficiently configured. BRAC has served this 
purpose well over the last 20 years, particularly where reduced 
budgets push us towards sustaining our infrastructure at lower 
levels, which will eventually affect readiness and quality of 
life.
    While we have no recent excess infrastructure capacity 
analysis from which to draw, our capacity analysis from 2004 
suggested that 24 percent of Air Force basing infrastructure 
was excess to our mission needs. While BRAC 2005 did not make 
major reductions to the Air Force, since that time we've 
reduced our force structure by more than 500 aircraft and 
reduced our active-duty military end strength by nearly eight 
percent. So, intuitively, we know that we still have excess 
infrastructure.

    Mr. Bishop. Thank you. I would appreciate that.
    Ms. Hammack. As we are decreasing the size of the force, 
right now in the Army a lot of that is occurring through 
attrition. So we are on a downward trend right now to reach 490 
by 2017. And as we are seeing forces decline, we are seeing 
that we are having excess space created, excess space in 
barracks, excess space in motor pools, excess space in 
headquarters. And when you implement a BRAC round, you 
consolidate into the highest and best use facilities that have 
the highest and best military value. So right now we are 
beginning to see problems with excess infrastructure in that 
our budgets do not support the operating costs of 
infrastructure that is partially occupied.
    Mr. Bishop. Staff is telling me that when you are looking 
at the reduction of forces, you are going back to the 2004 
level. So it seems like the same analysis would apply that was 
in effect in 2004.
    Ms. Hammack. Some of that analysis does still apply. And as 
Mr. Conger stated, at that point in time across the entire 
Department of Defense there was identified excess 
infrastructure for all.
    Mr. Natsuhara. In the Department of the Navy, I think we 
are in a little bit of different situation than the Army and 
the Air Force. Our forces are not drawing down as much as the 
Army and the Air Force have changed in the past 5 years. We 
believe we have been the beneficiary of previous BRAC rounds, 
and conducting this analysis will help us refine what we have 
currently. We have not identified anything to date because we 
haven't done an analysis, but we do believe the analysis will 
be beneficial for us.
    Mr. Bishop. Thank you, Mr. Chairman. I think my time has 
expired.
    Mr. Culberson. Thank you, Mr. Bishop.
    Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman. Welcome to all of you. 
As Mr. Conger pointed out, I have Fort Hood. I am going to be 
talking more about the Army than I am anybody else. However, I 
have great friends in the Air Force. And my family, if we had a 
force we were in, it was the Navy. So I love you. Mr. Conger, I 
am happy to see you here. I will say that in the world of 
partisan Washington, D.C., Congressman Edwards and I showed a 
big bipartisan effort on behalf of the Army in our 
neighborhood, and it has been one of the rewarding things that 
I have had in my time in Washington. And I consider Mr. Edwards 
a good friend as well as a colleague.
    Ms. Hammack and maybe Mr. Conger, you may want to comment, 
and I need something clarified. I am sure you are aware of the 
Endangered Species Act and its onus on the Federal Government. 
In many situations, our military installations have to lead the 
efforts for recovery of endangered species. In economically 
restrained conditions, maintaining compliance redirects those 
limited resources away from defense-related programs. 
Additional restrictions placed on our installations affect 
infrastructure decisions and limit training capacity.
    Can you discuss how environmental considerations affect the 
military value analysis, MVA, used in the programmatic 
environmental assessment and ultimately the Army's force 
structure and stationing decisions as troop levels reduce to 
490 by 2017? In your opening statement as to no significant 
impact, does that have a bearing on what I am asking you about?

    FORCE STRUCTURE AND STATIONING DECISIONS/MILITARY VALUE ANALYST

    Ms. Hammack. Thank you for your question. And Fort Hood is 
a great installation. In regards to the Endangered Species Act, 
one of the things that the entire Department of Defense has 
done over the years is identify many different mitigations, one 
of which is what we call the Army compatible use buffer system, 
I think it is called Readiness and Environmental Protection 
Integration Program (REPI), across the Department of Defense, 
where you have set aside lands that enable those species to 
establish habitat so that you are able to use your training 
lands for training purposes. The great thing about that program 
is it doesn't obligate future budgets. It is a one-time 
expense. And that is set aside for extended periods of time. 
And so we don't believe that the environmental impact would be 
adversely affected by these budgets. But that being said, when 
you talk about the programmatic environmental assessment, that 
assessment was evaluating significant reductions or minor 
increases across the bases, 21 bases were identified. If you 
are reducing the size of the force by 4,000 or 8,000 soldiers 
at a base, it would have a positive environmental impact not a 
negative, or adverse environmental impact. The most increase 
anticipated would be a thousand soldiers. That would be a 
gaining base. And we did not find any adverse environmental 
impact on any of our bases.
    Mr. Conger. Could I make a quick comment on that, too?
    Mr. Carter. Yes, please.
    Mr. Conger. On the endangered species issue, obviously we 
have a lot of species on our bases because we don't allow 
development on our bases. And so whereas when people build 
outside the installation, you know, sometimes--and in many 
cases the only place some of these species are found are on 
military bases. And, you know, we do take a degree of pride in 
taking care of what we are given as stewards for the taxpayer 
and for the country. That said, we have some really interesting 
tools in place that were passed by Congress that allow us to 
avoid some of the more egregious restrictions that would be 
imposed by critical habitat designations or such, one of which 
is the Sikes Act. And I was over at the Natural Resources 
Committee a couple weeks back testifying on that.
    The bottom line is the fact that we can do integrated 
natural resource management plans, as opposed to designating 
critical habitat, gives us the flexibility not just to protect 
the species but to protect the mission. And we don't have the 
sort of slam down restrictions that come into place that one 
might have in another scenario. In addition to that, I want to 
point out that we are all aware of the fact that there was a 
recent court case that says there is another couple hundred 
candidate species that have to be evaluated in a fairly short 
order. We have been proactive about that. We went in and 
required the services to do an assessment of whether any of 
those species being declared as endangered would impact our 
installations, which ones, where, and how much. And then we are 
integrating those proactively into our integrated natural 
resource management plans so if they are declared endangered we 
already have a plan in place to execute to avoid the impacts 
that they would impose.
    Mr. Carter. Well, good. That sounds very effective. I 
assume you did it with the salamanders and all the other things 
we are having to deal with in the private sector.
    Mr. Conger. Yes, sir.
    Mr. Carter. It is quite a challenge. Well, to me the most 
important thing we do is make sure that we put effective 
fighting men and women in the field, well trained. And whatever 
we can do that is smart to protect our training space is 
important to all of us. Fort Hood has done, and I know you, 
John, are aware of what Fort Hood's plan has been. It seems to 
have been effective. I know there is analysis being done right 
now as we approach BRAC. BRAC is a stressful time for the 
community, as all of you know. And that is why I just want to 
make sure that we are dotting our I's and crossing our T's on 
environmental issues, because I want trained soldiers in the 
field, as does the Army. So I thank you for that. I don't 
expect you to have any comments until your entire study is 
done, but overall as it relates to Fort Hood, do you think our 
set-aside program has been effective?
    Ms. Hammack. Yes, I do. I think it has been effective.
    Mr. Carter. Good. That is all you have to answer. That is 
all I want to know. Thank you. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Judge.
    Mr. Price.

                 PROGRAMMATIC ENVIRONMENTAL ASSESSMENT

    Mr. Price. Thank you, Mr. Chairman. Welcome to the entire 
panel today. By virtue of my redrawn congressional district, I 
paid special attention to the Programmatic Environmental 
Assessment that was released in January, and the response to 
that assessment from both the Fort Bragg leadership and the 
Fayetteville and Cumberland County communities. The signals, as 
I observed the situation, from the military--and this is of 
course directed to Ms. Hammack, because this is about the Army 
and its assessment--the signals that came from those issuing 
this report seemed to be somewhat mixed. On the one hand, there 
was a reassurance that these were hypothetical scenarios, 
possibilities, that they had a certain tentative quality. On 
the other hand, they certainly got a lot of attention. And 
there was an encouraging number of responses and of feedback 
from the community. And it was not quite clear just how 
concerned the communities should be or how seriously they 
should take these assessments. But I think it is fair to say 
they took them very seriously indeed. And so I understand now 
you are in the process of reviewing thousands upon thousands of 
public comments offered in response to the PEA, and that you 
expect to see a final product to this public comment period 
published in the Federal Register in the relatively near 
future. And you are going to have public listening sessions at 
the larger Army installations around the country.
    So my question this morning is just to ask you to give us 
whatever details you can about how this process is going to 
unfold. What are the steps that you are going to take to 
conduct these assessments? What kind of time frame are we 
looking at? And how much is all this complicated by 
sequestration and by the uncertain future with regard to 
sequestration? The entire PEA process of course was predicated 
on the Budget Control Act and the strategic review and the kind 
of budget figures that are contained there. Sequestration is an 
additional and unwelcome element in this picture, adding 
considerable uncertainty. And so if you could comment on the 
process you are following, but also on the degree it could be 
qualified or complicated by budget uncertainty a la 
sequestration.
    Ms. Hammack. Thank you, sir. We published today in the 
Federal Register a finding of no significant impact for the 
Programmatic Environmental Assessment (PEA), which closes the 
PEA process.
    Mr. Price. That is the environmental impact.
    Ms. Hammack. That is the environmental impact. The next 
step in the process is an explanation of the stationing process 
through the listening sessions that will be held at 29 Army 
installations. I believe Fort Bragg is scheduled for April 22. 
During those listening sessions, we will explain the stationing 
process, and we will take input from the community in regards 
to how they would be impacted by either an increase or a 
decrease in force structure.
    Mr. Price. And that is not limited just to the 
environmental impact. That includes the socioeconomic factors 
you mentioned earlier?
    Ms. Hammack. What I will tell you, in the finding of no 
significant impact, we did not get input on environmental. The 
input, I would say, the majority if not all of the input was 
socioeconomic. Over 8,000 comments were received. A majority of 
those comments were letter-writing campaigns, so they were 
identical in asking the Army to consider the socioeconomic 
impact and to consider that they would not be a location that 
would have a reduction in force, but would be a gaining 
installation. The Budget Control Act and the response to the 
Army is a reduction in force size by 80,000 soldiers. And so 
the PEA is a first step in the process to identify where we 
will be taking those reductions. When you layer Budget Control 
Act and anything beyond that $487 billion impact, the Army 
might have to reduce our force structure further. So in our 
80,000-man reduction, that is two Brigade Combat Teams out of 
Europe, that is six Brigade Combat Teams out of the United 
States. If we have to go further, it might be more of a 
reduction, could be eight, could be 10 Brigade Combat Teams in 
the United States. And the PEA is a foundational document that 
we will then be progressing through a military value analysis, 
a rating and ranking of each installation on various military 
value criteria, and then publishing input--a response as to 
where we will be taking those reductions.

                FORCE STRUCTURE AND STATIONING DECISIONS

    Mr. Price. Can you clarify the timetable you have been on 
with respect to final decisions about the restructures mandated 
under the Budget Control Act, or required by the Budget Control 
Act, and how that timetable could be disrupted or altered by 
the uncertainty surrounding sequestration?
    Ms. Hammack. Thank you, sir. Absolutely. In January, we 
released the programmatic environmental assessment that had 
taken the previous 6 to 12 months to do the comprehensive 
analysis. We extended the comment period from February to the 
end of March. And today, the 12th of April, we published the 
finding of no significant impact. The next phase is a month-
long time period during which we will conduct community 
listening sessions. After that, we will go into the military 
value analysis period. And then sometime this summer is when we 
anticipate announcing the stationing decisions.

                     FORCE STRUCTURE/SEQUESTRATION

    Mr. Price. And is that or is that not responsive to the 
additional variable of sequestration?
    Ms. Hammack. Whether we go beyond a reduction of six 
Brigade Combat Teams is entirely subject to budget. But you 
asked if there is anything that could change that, and yes, it 
could be something that happens globally that changes the mind 
of Congress and others that we need to maintain, if not 
increase the size of the Army in response to a threat.
    Mr. Price. No, I understand that. Of course we would assume 
that. But I am still not quite certain what the status of this 
summer report or this conclusion that the Army is going to 
reach this summer, what the status of that is, whether it is a 
kind of tentative report or policy contingent on the future of 
this sequestration, which after all is designed to go on for 10 
years and to be indiscriminate. And you know all the negative 
features of sequestration. Let's hope they can be overcome. But 
I guess my question is what if they aren't?
    Ms. Hammack. In my mind, and I like to sort of break it 
into simple terms, there is part one, part two. Part one is the 
$487 billion that is already in play that we are already 
responding to. And that is a reduction of 80,000 soldiers. Part 
two is the amorphous question of sequestration that we are not 
sure how to respond to, and we haven't identified the force 
reduction that we would have to implement to go there. The 
80,000 is already determined, we have already announced that, 
and we have two choices. What is happening right now is we are 
reducing the size of the force through attrition, which means 
you are going to have units that get to 75 percent manning or 
60 percent manning that are not complete units to train or 
deploy. So we need to consolidate into fully manned units to 
ensure that we are able to be a trained and ready force to 
support this Nation. So that is what is in play right now is 
that 80,000 reduction. That is the programmatic environmental 
assessment anticipation that we will be announcing those 
stationing decisions this summer as to where we are going to 
take those cuts. What is unsure is if we have to go deeper than 
that. And one of the concerns that we have is the only time the 
Army has been below 480,000 soldiers in the active Army was 
before World War II. 1942 we were at 480,000. And I don't think 
the world has gotten any smaller or safer since then.
    Mr. Conger. Could I jump in and make one more point just to 
clarify one quick thing? The budget request that came over in 
2014 does not make further cuts because of sequestration. In 
fact, the President's budget replaces the across the board 
sequester cuts with a comprehensive deficit reduction plan. In 
other words, it is almost like a budget resolution question 
that it became rather than an appropriations across the board 
cut. They have looked at other parts of the budget to absorb 
the cuts. And so we are able to come to you with a fiscal year 
2014 request that doesn't make the additional sequester cuts, 
that is more of the kind of budget that we would be asking for 
in order to maintain our facilities.
    Mr. Price. I think that is exactly what you should have 
done. I just hope that this institution can live up to the 
assumption embedded in that request, because the country 
deserves better than this. And our military deserves better 
than this. We simply must overcome this sequestration impasse 
and come up with a long-range comprehensive budget plan. So 
thank you for clarifying the extent to which your own 
recommendations are contingent on that.
    Ms. Hammack. And I thank you for your support, sir.
    Mr. Price. Thank you, Mr. Chairman.

                 PASSAGE OF PRESIDENT'S BUDGET PROPOSAL

    Mr. Culberson. Thank you, Mr. Price. Your budget 
recommendation then is contingent upon passage of the 
President's budget proposal?
    Ms. Hammack. Yes.
    Mr. Culberson. It is all based upon the President's budget 
proposal.
    Mr. Conger. It is based on the President's budget proposal. 
The President has sent over a budget proposal. That is what we 
are talking about here today. What the House and the Senate do 
is where we will end up.
    Mr. Culberson. Yeah. And I understand. You all are members 
of the executive branch. You are limited in what you can 
propose. You have to base it on what the recommendation is of 
the chief executive. That is something else we need to all of 
us talk about, and I hope change, because it is intensely 
frustrating for me, as it is all of us on the Appropriations 
Committee, to see all of the wonderful work that our agencies 
do, and no matter who is the President, you are sort of trapped 
as a member of the executive branch in planning on the 
President's budget recommendation becoming law, when we all 
know since I got here in 2001, and you have been here longer 
than I have, that is not going to happen. It is going to be 
based on what the Congress approves, and working it out with 
the Senate and the White House. It seems to me it would be far 
more productive for us to consider changing the budget process 
so that you all are able to make budget recommendations to the 
Appropriations Committee and the Congress based on an 
extrapolation of what previous appropriations bills have done 
and what is most likely to happen. Because the President's 
proposals are not likely to be enacted, as the recommendations 
of President Bush made didn't ever really fully become law. So 
you are sort of trapped as members of the executive branch. You 
have to assume the President's budget proposal will be enacted 
even though we all know intellectually and politically it is 
not.
    Mr. Conger. And we are given a figure to budget to writ 
large. And that is what this is all based on. I will note that 
the House-passed budget resolution had a substantial amount for 
defense, too, and it didn't take the cuts out of defense 
either. I mean that is a point of somewhat agreement in that 
context. It is just a question of where the money is made up, 
right?
    Mr. Culberson. Yes, sir. Thank you very much, Mr. Conger.
    Let me recognize my colleague, Mr. Fortenberry, from 
Nebraska for questions.

                          A NEW ROUND OF BRAC

    Mr. Fortenberry. Thank you, Mr. Chairman. I appreciate you 
holding this hearing today. This question has been unpacked, 
but let's try to unpack it again. What would a new round of 
BRAC basically look like? You talked about six million square 
feet of excess. There were some hints at excess base capacity. 
And the other question being we have termed it base realignment 
and closure, but that might not necessarily point to wholesale 
closures of certain areas. It might be programmatic, I assume, 
and then moving those and concentrating them in one area versus 
the other. Is that definition of BRAC being reworked?
    Mr. Conger. I don't think anybody is reworking the 
definition of BRAC per se. Realignment and closure are two 
different pieces of the puzzle. If you look at the earlier 
rounds that we conducted, there was probably more of an 
emphasis on closure than realignment. If you look at the 2005 
round, there were probably more alignments than we had had 
historically. It is because we were at a time of growth in 
2005. And in the previous rounds, the earlier rounds, we were 
consolidating, we were shrinking the size of the force. Today 
we are shrinking the size of the force. And so if you ask what 
will a future round of BRAC look like, I would posit it will 
look like those early 1990s rounds. That is the answer to the 
question. And I know there is a bad taste in people's mouth 
about the 2005 round. I have heard a lot of the arguments. But 
this is going to be a lot closer to the early 1990s rounds.

                     U.S. STRATCOM HQ CONSTRUCTION

    Mr. Fortenberry. Okay. Let me turn as well to the issue of 
Strategic Command new headquarters funding. The new 
headquarters, ground has been broken. The original building 
from the 1950s was basically designed to house telephones, and 
it has actually come under assault not from a foreign enemy, 
but from a broken water pipe, as you are probably aware and 
have said this to the committee before. So we are very pleased 
that we are making good progress, substantial progress on 
moving forward with this important, important component to our 
national security. We have got a 4-year projection. Does that 
look solid to you? There is one idea out there that apparently 
in construction processes you have to sequence certain things, 
either by department directive or maybe it is embedded in law 
somehow, in order to expedite construction and to ensure that 
we are on time and using the funds that are available in a 
timely fashion so it is not pushed to the outyears. Are there 
ideas in which we could move away from sequencing, if you will, 
and just parallel, meet those regulations in a parallel 
fashion? And I don't have any specifics. That is just a broad 
concept that has been proposed.
    Ms. Ferguson. What I can tell you is the Air Force is fully 
committed to supporting the construction of the headquarters US 
STRATCOM building. In this year's budget request we are 
requesting the third increment of funding. And that is $136 
million. In the last 2 years, Congress has authorized the full 
amount and appropriated $120 million in 2012 and $128 million 
in 2013. We are asking for $136 million this year. 
Construction, as you mentioned, construction is under way at 3 
percent complete. And we are still on a 4-year construction 
schedule. And we are anticipating construction being complete 
in September of 2016.

                SEQUENCING CERTAIN CONSTRUCTION DICTATES

    Mr. Fortenberry. Are you familiar with this issue, though, 
of expediting things, or rethinking this whole concept of 
sequencing certain construction dictates? And again, I don't 
have the specifics on that. It is just the concept.
    Ms. Ferguson. I am familiar with the concept. I am not 
familiar with the discussion surrounding this project. But we 
can get back to you.
    [The information follows:]

    The Air Force remains fully committed to supporting the 
construction of the headquarters USSTRATCOM building. The 
contractor's already aggressive construction schedule has been 
optimized to the maximum extent in line with the four years of 
incremental funding defined at project award. Because the 
USSTRATCOM site is small for a project of this magnitude, there 
is a limited amount of additional time that can be saved by re-
sequencing project events and would require restructure of the 
programmed incremental funding appropriations.
    While it is important to sequence the construction 
processes, we also must sequence the construction with the fit-
out of the facility's uninterrupted power systems, information 
technology/security equipment and furnishings. We appreciate 
Congress' continued support and timely appropriation of funds 
for these fit out items so they can be efficiently integrated 
into the construction schedule.

    Mr. Fortenberry. Well, that might be one way in which we 
can all think creatively as to how we move this along in an 
expedited fashion. If you want to research that further, it 
would actually be helpful to me to know the specifics of what 
that concept looks like.
    Ms. Ferguson. We will take a look to see what they are 
doing with respect to that.
    Mr. Fortenberry. Okay. Thank you, Mr. Chairman. He left. Am 
I the chairman?
    Mr. Nunnelee [presiding]. I will recognize Mr. Farr.

                USES FOR CLOSED OR REALIGNED FACILITIES

    Mr. Farr. Thank you very much. First of all, Principal 
Deputy Assistant Roger Natsuhara, congratulations on being a 
graduate of the Naval Post-Graduate School. It is a big deal up 
here. I appreciate this discussion on BRAC. I have probably 
been BRAC'd more than any Member of Congress. I have been 
closed, realigned, reorganized. I think the one thing that is 
missing in this BRAC discussion is what happens to these bases 
once they are closed. The goal is to transfer that land back to 
local governments and private sector to do economic development 
and to, you know, have a revitalization for the local economy. 
What is missing is the discussion of what it costs to clean up 
the base and how you do that. I would like to have a whole 
hearing on just that issue of cleanup. We have spent $451 
million on cleanup on all previous bases ever closed. One big 
issue with cleanup is the definition of dirtiness. The land 
can't be used until it has been cleaned. It can be mothballed, 
but that doesn't help the local economy at all. In fact, it is 
a problem. The ability to analyze how dirty it is is getting 
better through technology, and therefore can find more 
dirtiness so to speak. But with these advances in technology 
many of the people who are doing the cleanup say we can clean 
it up quicker, easier, and more efficiently, and we can save 
money while doing it. I think we need to concentrate on 
instances where the private sector comes in and says this 
cleanup can be done two or three times faster and more 
efficiently than the military DoD is doing it. I am not going 
to get into that other than I know a lot about that issue as 
does Representative Earl Blumenauer.

                          CAMP ROBERTS--SATCOM

    But I want to ask a couple of questions here for Secretary 
Hammack. First of all, I really appreciate all the effort you 
have given to deal with installation issues in my district. And 
these issues of which I am going to ask you, you can come into 
my office and talk about, because they are pretty specific. But 
for the committee, in my district there is a satellite command, 
SATCOM. There are only a few SATCOM stations in the entire 
world. They do all the intel communication globally. The SATCOM 
in my district is a very important relay facility based in the 
center of California inside a National Guard training base. 
There is a new MILCON project to enhance and expand and improve 
their operations. It was authorized in fiscal year 2011. It is 
known formerly as the Camp Roberts Satellite Earth Terminal 
Station Facility. The Corps of Engineers completed the project 
design and awarded the construction contract in August of 2011. 
Subsequent problems with the design have led the Army to 
terminate the existing contract, rebid the project based on a 
corrected design, which was less expensive than a lot of 
contract modifications. So the project is starting all over 
again from scratch. But I understand about $2 million has been 
spent on the project already. And I want to know, you know, 
what happened? How will the $2 million already spent be made 
up? What is the new deadline for completing the building? And 
what is the impact on SATCOM's mission? So to answer you might 
want to just come in to my office rather than take the time of 
the committee. And the second question I have----
    Mr. Culberson [presiding]. Very quickly. Forgive me, I just 
want to make sure, we have 11 minutes and 27 seconds.

                   RESIDENTIAL COMMUNITIES INITIATIVE

    Mr. Farr. Okay. The last question, and I won't even go into 
the background, is essentially the RCI projects and all the 
lawsuits that are going on around them. Why are we allowing 
project funds to pay for legal fees? And how will this money be 
reconstituted so that the RCI project doesn't cut corners and 
get into problem?

                     LAND TRANSFER MONTEREY COUNTY

    Lastly, this committee would be shocked at how difficult it 
has been to transfer one acre of land in an old historical site 
at Fort Hunter Liggett to the County of Monterey. So far it has 
taken us about 5 years of bureaucratic hurdles. But thank you, 
Ms. Hammack, for pushing that along. I can't believe what we 
have to go through to transfer such a little parcel of land 
that has no controversies.
    So Mr. Chairman, I will take my response in the office.
    Mr. Culberson. That is good. Thank you.
    Mr. Farr. Thank you.
    Mr. Culberson. Thank you very much, because we are in a 
vote. There is about 10 minutes left.
    So Mr. Nunnelee.
    Mr. Nunnelee. Thank you, Mr. Chairman. All of you are in a 
very challenging position. Members of this committee, members 
of this Congress are in a challenging position. Any time we 
hear the word BRAC we cringe. It is just a fact of life that 
many of us have military installations in our States, in our 
districts. And folks, those installations seem to have a way of 
building things, and buying things, and getting their 
paychecks, and it appears in the local economy, and it is 
important to all of us. Speaking only for myself, in my opinion 
it is not appropriate for us to invest in Department of Defense 
or any other agency of government for the purpose of economic 
development back in my hometown.
    Mr. Culberson. Hear, hear.

        FORCE STRUCTURE REDUCTIONS EFFECT ON DEFENSE OF FREEDOM

    Mr. Nunnelee. It is very appropriate for us to invest in 
defense for the purpose of defending freedom. If that happens 
to create jobs in mine or any other district, that is a 
byproduct of the defense of freedom. But our number one 
function is defense of freedom. And so we have heard a lot of 
talk this morning about reduced force structure, realignments, 
closure. I just want to hear from each of the four of you do we 
have too many Americans wearing the uniform of the United 
States around the world than the defense of freedom requires? 
And can we reduce force structure without compromising defense 
of freedom? Number one. Number two, we have an obligation to 
the soldiers, the sailors, the marines, the airmen that are 
defending freedom, standing in harm's way, to make sure they 
are the best equipped, the best trained in the world to do 
their job. Do we have too much training capacity in the United 
States and around the world to prepare those men and women than 
the defense of freedom requires?
    Mr. Conger. Those are great questions, sir. And 
unfortunately, you are talking to the infrastructure folks, not 
the people who decide how many people should be in any service 
of the military. So let me throw that caveat right out at the 
beginning. So we are going to have to defer to the experts in 
that regard. But let me throw out one other piece. We are the 
infrastructure folks. So our job is to make sure that there is 
enough training capacity, enough testing, enough housing, et 
cetera, et cetera, to make sure that the folks we do have, that 
we take care of them. That is our job. And it is one we take 
very seriously. What we are faced with is do we have too much? 
We think we do have a little bit excess of our needs. And we 
need to do that analysis in order to figure out where we can 
reduce without impacting. That is really what it boils down to. 
So I can't tell you whether we have too many, too few. There 
are people in the Department who will be better poised to 
answer that question. And I don't think it is appropriate for 
me to answer it. But I can say that I believe that we have too 
much infrastructure, and we can reduce it without jeopardizing 
our freedom.
    Mr. Culberson. Great question. And we have got about 7 
minutes left in the time to vote. But it is a superb question. 
I couldn't agree with you more, Mr. Nunnelee, that it is about 
defending freedom. Please answer.
    Ms. Hammack. I echo what John says. You know, one of the 
challenges we have is if our infrastructure is out of balance 
with our force structure, then you have money going to force 
structure that should go to training our forces. And so one of 
the things BRAC does is enables us to align our infrastructure 
with our force structure so budgets can be appropriately spent 
and allocated.
    Mr. Natsuhara. In the Department of the Navy we also try to 
match--we continuously match our infrastructure with our force 
structure. And as John said, the force structure is set by 
others. We on the facilities side work with them to make sure 
we have the proper facilities in the Department. Overseas, I 
think we have continuously done a good job of matching our 
infrastructure overseas. We have a little more flexibility 
there. In the United States, in the past the Navy has been very 
aggressive in BRAC. And I think we have benefited from that. So 
upcoming BRAC, ``we think the analysis would continue to be 
beneficial for us.''
    Thank you.
    Ms. Ferguson. I agree with all the statements that all my 
colleagues have made. One thing I just would like to add is if 
another round of BRAC is authorized, the first thing we do is 
we look at the 20-year force structure plan and marry that up 
against the infrastructure inventory and begin to do our 
analysis off of that.
    Mr. Nunnelee. Thank you for the work you do. Thank you, Mr. 
Chairman.
    Mr. Culberson. Thank you.
    Mr. Diaz-Balart.

                                NET ZERO

    Mr. Diaz-Balart. Thank you, Mr. Chairman. I know we are 
running out of time, so I will just I think ask maybe one 
question to Ms. Hammack. What is the status of the net zero 
initiatives? Those initiatives around the country. And are 
there any concerns of the cost of those initiatives as we move 
forward? And what is the cost? Is it less expensive, more 
expensive? And what is the status of that?
    Ms. Hammack. The status of net zero is to reduce our 
resource requirements so that we can help manage our costs in 
balance with the environment. So when you use less energy, then 
you have less need for energy budgets. And if you use less 
water, then you have less need for water costs. So it is really 
focused on reducing our resource requirements, better utilizing 
the resources we have, and the net result is lower operating 
costs. So the net zero program is really to enable us to 
operate more efficiently and effectively with the resources we 
have.
    Mr. Diaz-Balart. And the bottom line is that obviously then 
with the goal of it costing less.
    Ms. Hammack. Absolutely.
    Mr. Diaz-Balart. Great. Great. Mr. Chairman, can I have one 
other quick question?
    Mr. Culberson. Quick as you can.

                      DISPOSAL OF CLOSED PROPERTY

    Mr. Diaz-Balart. This will be quick. Just when you go 
through the BRAC process, and you know, the property is 
disposed of, how do we assure that those properties don't go to 
folks who are, you know, connected? In other words, that it is 
a clean, transparent process? And obviously a lot of times, you 
know, local governments get in. But is there a process to try 
to make sure we don't read about it later and get embarrassed? 
What is that process?
    Mr. Conger. Let me take that one real quick. There is a 
complex process, but it involves buy in from the local 
community. First, actually Federal Government entities get a 
shot at reusing the property. But then we go out to local 
authorities that come up with a reuse plan. And it is 
transitioned in that way. The advantage of the BRAC process in 
particular, as opposed to just a simple divesting of excess 
infrastructure, is that it gives the opportunity to the local 
community to get first shot at that, and it also emphasizes the 
creation of jobs and projects and reuse methodologies that 
actually create jobs. And that ends up making the community 
better off than if you simply divested the infrastructure 
without BRAC.
    Mr. Diaz-Balart. But I am assuming that once it gets to the 
local community, I mean do you all lose control or do you all 
lose total control?
    Mr. Conger. Once it has been transferred, we don't actually 
keep rights to the property.
    Mr. Diaz-Balart. Right. So you lose control once it is 
transferred.
    Mr. Conger. Once we have actually handed it over.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much.
    Mr. Bishop.
    Mr. Bishop. I thank the witnesses for coming. I think we 
have had extensive conversations, and we will submit some 
additional questions for the record. Thank you.
    Mr. Culberson. Thank you very much. We deeply appreciate 
your service to the country. I know we each have additional 
questions we will submit to you in writing for the record. And 
we are about 2 minutes left in this vote, and the Members will 
be scattered to the four corners of the globe.
    So we will adjourn the hearing with sincere thanks and 
appreciation for the work that you do, and our renewed 
commitment, of course, to provide every ounce of effort and 
support we can to our men and women in uniform to ensure they 
never have to look over their shoulder and worry about the 
quality of their living conditions, or health care, or 
equipment that they have. We deeply appreciate your work. And 
the hearing is adjourned. Thank you.
    [Questions for the Record follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
